=
I

C@OCKLE

: E-Mail Address:
Le 88 | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-472
HOLLYFRONTIER CHEYENNE
REFINING, LLC, ET AL.,
Petitioners,
Vv.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF RESPONDENTS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for.the footnotes,

and this brief contains 12941 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 24th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz 2 4 4
RENEE J. GOSS 9 ( he A a egies a
My Comm. Exp. September 5, 2023 £

Notary Public

     

Affiant 40791
